    Office of Inspector General

U.S. Small Business Administration


    Inspection Report

           No. 98-03-01

         Loan Agents

            and the

     Section 7(a) Program

            March 1998
March 31, 1998

TO:	           Aida Alvarez
               Administrator

THROUGH: Karen S. Lee
         Acting Inspector General

FROM:          Tim Cross
               Assistant Inspector General
                 for Inspection and Evaluation

SUBJECT:       Inspection of Loan Agents and the Section 7(a) Program

    We are pleased to submit our inspection report on Loan Agents and the Section 7(a)
Program, which focuses on preventing loan agent fraud. Although competent and honest
loan agents help small businesses gain access to capital, some agents have perpetrated
fraudulent schemes which have resulted in SBA’s purchase of defaulted loans. As of the
end of Fiscal Year 1997, in the 7(a) program alone, criminal investigations had been
initiated on 354 individuals involving loan applications handled by 18 loan agents.
Twenty-eight percent of these agents had prior criminal records. Moreover, allegations
involving loan agents continue to be reported to the Office of Inspector General (OIG).

   Over the past few years, Agency officials have been examining ways to make loan
agents more accountable. Factors affecting SBA’s ability to accomplish this include the
Agency’s diminished staff resources and the potential for loan agents to use the Internet to
commit fraud on a national scale. Accordingly, and consistent with SBA’s emerging
oversight role, any system to enhance loan agent accountability should emphasize fraud
prevention over expensive after-the-fact remedies; avoid creating undue hardship for small
businesses, lenders, and honest loan agents; monitor agents’ performance to identify
problems; and take into account technological change.

   An important preventive tool--and one recommended by SBA’s Committee on Loan
Packager Reforms--is the registration of loan agents. Without an up-to-date registry, no
effective accountability or controls are possible. As part of this process, loan agents
should provide limited personal data so that the OIG could conduct a criminal history
check. Based on the experience of some lenders, the OIG believes that the mere act of
requesting verifiable information could deter dishonest individuals from involvement in the
7(a) program.

    To accomplish the above without the administrative burden of fingerprinting, the OIG
recommends that you propose expanding current legislation to include loan agents among
those subject to National Crime Information Center criminal history checks. The OIG
further recommends that the Associate Administrator for Financial Assistance establish a
loan agent registration system that, among other things, creates Internet lists of registered
loan agents and those agents whose privilege to conduct business with SBA has been
suspended or revoked, ensures that loan agent registration is not considered an Agency
endorsement, and informs lenders that SBA is under no obligation to guarantee loans in
which agents were involved after the above privilege was suspended or revoked.

   Because systematic monitoring of loan agent performance can serve as an early
warning system for identifying problems, the OIG recommends that the Associate
Administrator for Financial Assistance establish a loan agent monitoring system that holds
the lender responsible for the accuracy of data (including electronic data) originated by
loan agents and transmitted by the lender to SBA, ensures that all loan data is linked to the
agents involved, establishes purchase rate benchmarks that would trigger closer
examination of a loan agent’s performance, and centralizes the evaluation of agent
performance to ensure consistency. Finally, the report discusses the possible use of
lenders’ bond insurance policies to help protect SBA from losses due to loan agent fraud.

   The Acting Associate Administrator for Financial Assistance commented that the
Office of Financial Assistance (OFA) shares the concerns identified in the report and is
basically in agreement with the recommendations. She noted, however, that OFA remains
somewhat less convinced than the OIG of the magnitude of the problems caused by loan
agents.

    The OIG inspection team appreciates the excellent cooperation received from SBA
staff, other Federal officials, lenders, loan agents, and representatives from other non­
governmental organizations. We would welcome the opportunity to brief you on this
inspection at your convenience.



Attachment

cc: Chris Sale
                          TABLE OF CONTENTS



                                                          Page


EXECUTIVE SUMMARY                                          iii


BACKGROUND                                                   1


OBJECTIVES, SCOPE, AND METHODOLOGY                           7


CURRENT BARRIERS TO LOAN AGENT ACCOUNTABILITY                9


CHANGES AFFECTING SBA’S FUTURE REGULATION OF

LOAN AGENTS                                                13


PREVENTIVE MEASURES                                        17


MONITORING PERFORMANCE                                     27


AN OPTION FOR LONG-TERM CONSIDERATION:

BLANKET BOND POLICIES AND SBA                              31


APPENDICES


     A    Current Version of the Compensation Agreement    33


     B    Draft of the Revised Compensation Agreement      35


     C    Office of Financial Assistance Comments          37


     D    Contributors to this Report                      39

                    ABBREVIATIONS


CFR      Code of Federal Regulations
CLP      Certified Lenders Program
CPA      Certified Public Accountant
FY       Fiscal Year
GSA      General Services Administration
HUD      Department of Housing and Urban Development
IRS      Internal Revenue Service
LowDoc   Low Documentation Loan Program
LSP      Lender Service Provider
NAGGL    National Association of Government Guaranteed Lenders
NCIC     National Crime Information Center
NPR      National Performance Review
OCIO     Office of the Chief Information Officer
ODA      Office of Disaster Assistance
OFA      Office of Financial Assistance
OIG      Office of Inspector General
OMB      Office of Management and Budget
PLP      Preferred Lenders Program
SBA      Small Business Administration
SBLC     Small Business Lending Company
SIC      Standard Industrial Classification
SOP      Standard Operating Procedure
VA       Department of Veterans Affairs
                               EXECUTIVE SUMMARY


                                Purpose and Background


The 7(a) Program. Under Section 7(a) of the Small Business Act (Public Law 85-536, as
amended), the Small Business Administration (SBA) guarantees up to 80 percent of a
private lender’s loan to a small business borrower who cannot obtain credit elsewhere on
reasonable terms and conditions. The number of 7(a) loans approved each year more than
quadrupled between Fiscal Year (FY) 1990 and FY 1997, from 10,848 to 45,288, while
the number of SBA employees decreased from approximately 4,100 to 3,100.

Loan Agents. The 7(a) program involves not only SBA, borrowers, and lenders but also
loan agents, who provide referral and/or loan application services for a fee. Because of
the Agency’s recent experience with fraud on the part of some loan agents, the Office of
Inspector General (OIG) initiated this inspection to identify efficient ways to reduce the
opportunities for fraud and minimize its impact on the program. The loan agent issue also
highlights the problem of trying to regulate any cottage industry: how a resource-
constrained agency can keep a program relatively secure while allowing access to a wide
range of users and enabling private entrepreneurs to provide support services needed by
some users. On the plus side, competent and honest loan agents can screen prospective
borrowers for eligibility and, when appropriate, assist them in preparing application
paperwork. Agents also can increase small business access to capital by reaching
underserved communities.

Problems with Loan Agents. Dishonest agents, on the other hand, pose a problem for
borrowers, lenders, and SBA. OIG cases have included various fraudulent schemes, such
as submitting false tax returns or other financial data, charging the borrower excessive
fees, using fictitious names on SBA forms, exaggerating their ability to gain loan approval,
acting in illegal collusion with officials of lending institutions, and conspiring with
borrowers to submit false loan packages. Such schemes have forced the purchase of
defaulted loans by SBA and, ultimately, the taxpayer. As of the end of FY 1997, in the
7(a) program alone, criminal investigations had been initiated on 354 individuals involving
loan applications handled by 18 loan agents. The loan volume associated with these
investigations exceeded $123 million. Twenty-eight percent of these agents had prior
criminal records. Moreover, allegations involving loan agents continue to be reported to
the OIG.

Work Performed. To identify ways to reduce fraud by loan agents, the inspection team
interviewed SBA central office officials, SBA district office staff, lenders in high
volume/high loan-purchase districts, loan agents, program officials at other Federal
agencies, and relevant staff in other OIGs. The team also obtained information from the
National Association of Government Guaranteed Lenders (NAGGL) and provided input
on its proposal for a loan agent registration and training process.
Because loan agents and the Agency will increasingly rely on electronic communications,
team members obtained information on electronic security measures from SBA’s Office of
the Chief Information Officer (OCIO) and outside organizations. Finally, the team
evaluated the possible use of professional liability/malpractice insurance, individual bonds,
and/or lenders’ blanket bond policies to ensure loan agent integrity and cover at least part
of the Agency’s financial position in the event of loan agent fraud.


                                        Conclusions

Barriers to Accountability. There are several barriers to making loan agents more
accountable. The most basic may be overcoming the confusion over loan agents’ roles
and functions, which vary widely. Second, there are few preventive measures, such as
background checks, that would bar questionable individuals or firms from becoming loan
agents. Third, SBA information systems presently lack reliable data on the number of
active loan agents. Fourth, it is often difficult to assess the impact of loan agent activity,
e.g., determining whether a loan defaulted because of agent fraud, incompetence, or
reasons unrelated to the agent’s actions. The final barrier is SBA’s diminished staff
resources, which limit the Agency’s ability to monitor agent performance.

Changes Affecting Future Regulation. As SBA staffing has been reduced, the Agency’s
role has shifted from being directly involved in loans to monitoring and regulating lenders.
While this provides opportunities, it also poses increased risks, such as lenders being less
likely to report agent fraud because they fear bad publicity. In addition, many lenders are
contracting out certain loan functions, raising concerns about accountability and quality
control.

Changes in technology also are altering the way lenders, SBA, and related service
providers do business. These include the Internet and its potential for fraudulent use, the
Agency’s gradual movement toward a largely paperless office environment, the
strengthening of SBA’s internal computer systems, the quest for secure methods of
sending financial data electronically, and decreased emphasis on personal contact between
a lender, loan agent, and borrower, possibly affecting the quality of credit decision-
making.

A System for Accountability. Consistent with SBA’s emerging oversight role, any system
to enhance loan agent accountability should:

• 	Emphasize fraud prevention over expensive after-the-fact remedies.

• 	Avoid creating undue hardship for small businesses, lenders, and honest loan
   agents.

• 	Monitor agents’ performance to identify problems.
•   Take into account technological change.

Preventive Measures. Although the lenders and SBA officials interviewed generally agree
that lenders should be held responsible for the loans they approve, regardless of whether
loan agents were involved, all parties to a loan transaction need adequate preventive tools
to minimize agent fraud. An important preventive tool--and one recommended by the
Agency’s Committee on Loan Packager Reforms--is the registration of loan agents.
Registration can reduce the potential for fraud while also channeling loan agents into
SBA-sponsored training and/or testing designed to ensure a standard for competence. In
addition, registration can provide an accurate accounting of loan agents and a means of
tracking their performance.

Recently, SBA has moved closer to developing a loan agent registration process that
would require everyone who acts as a loan agent to register, including those who perform
such services infrequently. A revised Compensation Agreement, which is submitted at
loan closing, would trigger the registration process; training and/or testing would be
conducted after an agent had been involved in a certain number of loans; and a list of
registered agents would be made available to all lenders, SBA staff, and prospective
borrowers. The Agency would also establish a procedure for suspension or revocation of
a loan agent’s privilege to conduct business with SBA consistent with the Code of Federal
Regulations (13 CFR 103).

An effective registration system requires screening to prevent or deter dishonest loan
agents from participating in SBA programs. Currently, all prospective 7(a) borrowers
must certify whether they have a prior criminal record and provide basic personal data. In
addition, the Agency has required prospective borrowers to sign a waiver allowing SBA
or lenders to verify their tax returns against Internal Revenue Service (IRS) records.
Some bankers have surmised that the mere act of requesting such verifiable information
has deterred dishonest borrowers from proceeding with their loan applications.

Having loan agents provide limited and non-tax-related personal data would help the OIG
to obtain a criminal history and could deter fraud. The simplest way for SBA to gain
access to loan agent criminal histories from the National Crime Information Center
(NCIC)--without the administrative burden of requiring fingerprints--is to expand
recent legislation that allows the Agency’s Administrator to verify the existence of 7(a)
and other loan applicants’ criminal backgrounds through the NCIC. The current
estimated cost of such a check is between $2 and $6 per agent. The OIG recommends
that the Administrator propose expanding current legislation to include loan agents
among those subject to National Crime Information Center criminal history checks.

To avoid unnecessary delays for loan applicants, SBA could tentatively register agents
prior to completing their screening. Agents who then fail the background checks would
be removed from the list of registered agents and placed on publicly available lists of
agents whose privilege to conduct business with SBA had been revoked or suspended
until further notice. Agents failing to register at all would also be placed on the list of
agents suspended until further notice.

We believe that this registration process would be effective in curbing loan agent fraud.
To give it some force and credibility among lenders, SBA should also advise all lenders
that the Agency is under no obligation to guarantee loans in which agents were involved
after their privilege to conduct business with SBA had been suspended or revoked. In
addition, the lists could be made available promptly to prospective borrowers, lenders, and
SBA field staff through the Agency’s Internet Home Page. A similar process is used by
the General Services Administration (GSA) to maintain lists of parties excluded from
procurement and other types of programs.

Accordingly, the OIG recommends that the Associate Administrator for Financial
Assistance establish a loan agent registration process that-­

a) Requires that any person or entity acting as a loan agent on any Section 7(a)
   business loan register with the SBA.

b) Ensures that each loan agent provides information, over his or her signature,
   that includes the Compensation Agreement, as revised, and the following:

       • 	The agent’s name, date of birth, place of birth, and Social Security
          number.

       • 	Written authorization for the OIG to request information from criminal
          justice agencies.

       • 	Acknowledgment that the agent is aware of the requirements of Title 13,
          Part 103, of the Code of Federal Regulations.

c) E
   	 stablishes, through the Office of the Chief Information Officer (OCIO),
   Internet lists of registered loan agents and agents whose privilege to conduct
   business with SBA has been suspended or revoked.

d) Ensures that SBA’s loan application packages, Internet Home Page, and other
   media carry the disclaimer that loan agent registration is neither an
   endorsement by the Agency nor a guarantee that using a registered agent will
   result in loan approval.

e) I	 nforms lenders that SBA is under no obligation to guarantee loans in which
    loan agents were involved after the suspension or revocation of their privilege to
    conduct business with the Agency.

Monitoring Performance. Systematic monitoring can serve as an early warning system
for identifying problems before they can grow. An existing Standard Operating Procedure
requires SBA to monitor third-party representatives, such as loan agents, but the
inspection team found that it has not been consistently followed. Effective monitoring
requires reliable data on which decisions can be made, ready access to the data by officials
responsible for monitoring, and timely analysis of the data for the purpose of taking
corrective action. Agency officials plan to track the performance of loan agents in the
emerging Corporate Data Base, and lenders will be responsible for submitting current loan
data and status updates directly to SBA through the Internet. Because SBA depends on
lenders’ information systems, lenders must be held accountable for any data they send to
the Agency, including any originated by loan agents.

SBA also needs to review loan agent data on a regular basis to identify and correct
problems. For example, it should set numerical standards that would trigger closer
examination of an agent’s activities if the purchase rate of loans associated with the agent
exceeded a defined limit or fell outside the range of most agents’ purchase rates. Given
the potentially wide geographical coverage of loan agents and the inconsistencies among
some district offices in their handling of the agents, the OIG believes that a single office
should be responsible for handling the analysis of all loan agents and any follow-up. The
OIG recommends that the Associate Administrator for Financial Assistance
establish a loan agent monitoring system that-­

a) Holds the lender responsible for the accuracy of data (including electronic data)
   originated by loan agents and transmitted by the lender to SBA.

b) Ensures that the Corporate Data Base links all loan data to associated loan
   agents, including the purchase rate of such loans.

c) E
   	 stablishes purchase rate benchmarks that, if exceeded, would trigger closer
   Agency examination of a loan agent’s performance.

d) Centralizes the evaluation of loan agent performance in a single office, rather
   than among district offices, to ensure consistency in the monitoring and handling
   of loan agents.

Blanket Bond Policies and SBA. A final issue for long-term SBA consideration is the
potential use of a lender’s financial institution bond insurance policy, which protects
against loss resulting from dishonest or fraudulent acts committed by employees acting
alone or in collusion with others. The report discusses what would be required to use
such a policy to help SBA protect itself from losses due to loan agent fraud.




                                     SBA Comments
The Acting Associate Administrator for Financial Assistance commented that the Office of
Financial Assistance (OFA) shares the concerns identified in the report and is basically in
agreement with the recommendations. She noted, however, that OFA remains somewhat
less convinced than the OIG of the magnitude of the problems caused by loan agents.
                                            BACKGROUND



Section 7(a) Program

Under Section 7(a) of the Small Business Act (Public Law 85-536, as amended), SBA
guarantees private lenders’ loans to small business borrowers who cannot obtain credit
elsewhere on reasonable terms and conditions. SBA currently guarantees up to 80 percent
of the face amount of such loans. The guarantee amount is generally limited to $750,000
except for Defense Loan and Technical Assistance Program, International Trade, and
Pollution Control loans. In fulfillment of its guarantee to lenders, SBA currently
purchases between $400 million and $450 million of defaulted 7(a) loans annually, with
actual losses since 1990 exceeding $200 million per year. Annual purchases are projected
by SBA to double by the year 1999 if loan demand forecasts are realized. Emphasizing
the use of guarantees against borrower default reflects the Agency’s shift during the 1980s
from directly subsidizing credit risk to improving access to capital at the least possible
cost. More than 8,000 lenders--banks, Small Business Lending Companies (SBLCs), and
other credit providers--have made at least one 7(a) loan in the past five years.

The number of 7(a) loans approved each year more than quadrupled between Fiscal Year
(FY) 1990 and FY 1997, from 10,848 to 45,288. Over the same time period, the number
of SBA employees decreased from approximately 4,100 to 3,100. As a resource-
constrained SBA increasingly relies on private sector lenders to carry out Section 7(a)
program objectives, other major changes are occurring. First, lenders and borrowers are
using third-party cottage industries such as loan agents to handle traditional loan functions
not only in the 7(a) program but in other programs as well. Second, new technologies for
loan-making and monitoring are emerging. Third, SBA’s responsibilities are shifting from
direct involvement in loan management to more of an oversight role.


Loan Agents Defined

The 7(a) loan program involves not only SBA, borrowers, and lenders but also various
types of loan agents who conduct business with the Agency. Although the distinctions
between them are not always clear, the three major types of loan agents are loan
packagers, referral agents, and lender service providers. Loan packagers, according to
the definitions in the Code of Federal Regulations,1 are agents compensated by either loan
applicants or lenders to prepare loan applications. Referral agents--who refer either loan
applicants to lenders, or lenders to loan applicants--may be compensated by either party.
Lender service providers carry out lender functions in originating, disbursing, servicing,
or liquidating Agency loans in return for compensation from lenders. SBA determines
whether or not one is a packager or lender service provider on a loan-by-loan basis.

1
    Title 13, Code of Federal Regulations, Part 103, Section 1 (13 CFR 103.1).
Finally, a loan agent need not be an individual. For example, Certified Development
Companies and Small Business Development Centers can package loans.


Positive Contributions of Loan Agents

Competent and honest loan agents can help lenders, borrowers, and SBA by screening
prospective borrowers for eligibility early in the loan origination process and, when
appropriate, preparing application paperwork in a complete, consistent manner. Because
loan agents know how the 7(a) program works, they also serve as a communication link
among the parties to a loan. These contributions can increase loan volume and save time
for borrowers, lenders, and the Agency. To avoid conflicts of interest, a good agent is
careful not to work for both the lender and borrower during origination on the same loan.

Preparing a complete and understandable loan package is not a simple task. According to
SBA district officials, the Agency continually is required to use additional forms even as it
strives to simplify the application process. Some of these, such as the form asking if the
borrower is delinquent on child support payments, may have little direct relevance to a
credit decision.

Perhaps the greatest contribution of loan agents is that they can increase small business
access to capital by reaching underserved communities and bringing into the program
people who otherwise might not be served by SBA. Agents often bring smaller, rural
banks into the 7(a) program--where one or two SBA loans can be very meaningful to a
small town’s economy. In short, loan agents can expand SBA program outreach at no
direct cost to the Agency, thus leveraging private sector resources.


Problems with Loan Agents

Unfortunately, some agents, particularly loan packagers, have had a negative influence on
borrowers, lenders, and SBA. Office of Inspector General (OIG) cases involving loan
agents have included a range of fraudulent schemes.

       •   	 ubmitting false or fictitious applications, including false invoices, liens,
           S
           financial statements, and tax returns.

       •   	Charging the borrower excessive fees for preparation of the loan package.

       •   	Falsifying or omitting required fee information to SBA.

       • 	Concealing the true name of the agent by using fictitious names on SBA
          forms.
         •   	Requiring kickbacks from successful borrowers.

         • 	Requiring other incentives, such as the signing of “management agreements”
            or consulting contracts from borrowers.

         •   	 isstatements to applicants, “guaranteeing” approval of loans, and alleging to
             M
             have contacts inside SBA or lending institutions.

         •   	 eliberately providing false information to applicants regarding SBA
             D
             regulations on use of loan proceeds.

         •   	 harging “contingency,” “advance,” or “finders” fees, for which there is no
             C
             provision in SBA regulations.

         •   	Illegal collusion with officials of lending institutions.

         •   	Conspiracy with borrowers to submit false loan packages.

         •   	Bribes or gratuities to SBA or bank officials for loan approvals.

These schemes, which have been copied from one fraudulent agent to another, have
resulted in loan purchases by SBA and, ultimately, the taxpayers. Moreover, before SBA
initiated a “two master” rule, loan agents were able to be compensated by the borrower
and the lender on the same loan--a clear conflict of interest.2

In some cases, one loan agent can commit a combination of crimes. For example, a
packager conspired with two individuals to defraud SBA by submitting false financial
statements, tax returns, and other documents to influence the Agency to guarantee a
$360,000 loan. The false documents were prepared to substantiate earlier false statements
that a contract for deed existed and that the packager had maintained the business’ records
for years. The packager was eventually convicted on 12 counts of conspiracy, mail fraud,
material false statements, and money laundering.

Sometimes agents simply exaggerate their capabilities. In one high-tech twist, a loan
agent firm used the Internet to portray itself as an “SBA preferred packager,” a non­
existent designation.

As of the end of FY 1997, in the 7(a) program alone, criminal investigations had been
initiated on 354 individuals involving loan applications handled by 18 loan agents. The

2
  The new Standard Operating Procedure (SOP) 50-10 (4), effective December 1, 1997, describes the
capacities in which an agent may work for a loan applicant or lender. For example, an agent working for
the applicant as a packager may also be a referral agent for the lender on the same loan if both parties are
aware of both relationships. However, an agent working for an applicant as a packager generally may not
work as a lender service provider on that loan.
loan volume associated with these investigations exceeded $123 million. Twenty-eight
percent of these agents had prior criminal records. Moreover, allegations involving
loan agents continue to be reported to the OIG.

According to SBA officials and others in the small business lending community,
prospective borrowers use loan agents because they have been rejected more than once by
lenders. This raises questions about the quality of some of the loan applications being
brought to lenders for approval.

Questions have also been raised concerning the competence of some loan agents.
According to SBA officials, lenders, and loan agents, a number of loan agents lack the
competence to adequately prepare loan applications. Comments about these loan agents
ranged from complaints from borrowers that loan applications were not completed quickly
enough to concerns from Agency officials and fellow loan agents that certain agents
lacked the business skills to properly prepare a loan application.


Committee on Loan Packager Reforms

In 1994, to remedy the problem of fraud in SBA programs, then-SBA Administrator
Erskine Bowles established a Fraud Prevention Task Force, which included a Committee
on Loan Packager Reforms chaired by an Office of Financial Assistance (OFA) official.3
In December 1996, the Committee made its recommendations.

           •    	Establish a code of Standards of Conduct for loan packagers.

           •    	 stablish a loan training curriculum for packagers covering policies,
                E
                procedures, standards, conflicts of interest, application package requirements,
                and financial information presentation.

           •    I	 n conjunction with the Office of the Chief Information Officer (OCIO),
                 establish a data base of information on packagers, including information from a
                 registration process.

           •    	 odify SBA Form 159, Compensation Agreement, to reflect more
                M
                clearly the services provided and fees charged by packagers and loan
                referral agents. The form would serve as a disclosure statement for all such
                services and fees and would be signed by each provider, lender, and small
                business concern.

The Committee stated that implementation of registration and tracking depended on the
development of the planned client server data base. The data base, now called the
Corporate Data Base, will differ from the current systems in that the data elements of all

3
    The issue of defining the role of “packagers” is discussed later in this report.
programs will be kept in the same system, thus allowing SBA to link lenders, borrowers,
and agents with any programs in which they participate. Such a data base could indicate
questionable patterns of activity, e.g., a packager doing all of his/her business within one
market segment, such as gas station loans. The part of the system that collects
information about businesses, principals, and resource partners (such as lenders) is the
Client Data Base.

Under the current plan, data will be entered by SBA’s field offices. OFA’s proposed data
elements for loan agents include the agent’s name, Social Security number, company
name, employer identification number, company address and phone number, type of agent,
years of experience, the lender(s) the agent works for, loan number, agent fee, loan
amount, narrative fields for complaints and related matters, and information on
suspensions and debarments (also known as revocations).


The Key Issue: Security vs. Access

In a broad sense, the loan agent issue highlights the fundamental problem of trying to
regulate any cottage industry: how to maintain program security while allowing access to
a wide range of users and enabling private entrepreneurs to provide support services
needed by some of the users. More specifically, this raises the following questions:

•   	 ow can SBA assure prospective borrowers that the loan agents with whom they do
    H
    business will not defraud them?

•   	 ow can SBA keep dishonest and/or incompetent loan agents out of the 7(a) program
    H
    without harming the program’s outreach?

•   	 o what extent should SBA regulate professionals such as accountants or lawyers who
    T
    occasionally act as loan agents?

•   	How can SBA minimize losses from loan agent involvement?

•   	 ow can a resource-constrained SBA regulate loan agents while minimizing the need
    H
    for more paperwork and staff?


Program Surety, Not Security

Unfortunately, the only way to ensure perfect program security is to deny everyone
access. A more useful concept is program surety. Program surety is risk management
that balances access with security by striving to limit rather than eliminate risk, thereby
conserving resources. Despite barriers to minimizing loan agent fraud and incompetence,
the concept of surety offers a framework for balancing the seemingly conflicting interests
identified above.
                  OBJECTIVES, SCOPE, AND METHODOLOGY



The issues involving loan agents are likely to reflect larger SBA challenges as the Agency
changes from paper-intensive, hands-on program management to electronic-based, lender-
reliant program execution. The purpose of this inspection was to identify efficient ways to
reduce the opportunities for loan agent fraud and minimize its impact on prospective
borrowers, lenders, and SBA.

As part of this inquiry, the inspection team sought to determine (1) what percentage of
7(a) loans involved loan agents and (2) what percentage of such loans had defaulted.
Unfortunately, SBA’s main data bases currently do not track whether a loan involved a
loan agent, nor do the Agency’s district offices consistently keep track of loan agents.
Moreover, there was the problem of whether purchases could be attributed primarily to
harmful loan agent behavior or to loan agents conscientiously reaching the somewhat
higher risk borrowers that SBA is supposed to serve. Complicating such an analysis is the
fact that most 7(a) loan defaults do not occur until three to five years after origination.

The inspection team interviewed SBA central office officials, SBA district office staff,
lenders in high volume/high loan-purchase districts, and loan agents to learn their
perspectives on the benefits and drawbacks of loan agents. The team also interviewed
program officials at the Internal Revenue Service (IRS), the Department of Housing and
Urban Development (HUD), the Department of Veterans Affairs (VA), Fannie Mae, and
the Department of Agriculture to determine if their handling of third-party agents revealed
methods applicable to SBA. Although this inspection focused on the 7(a) program, the
team interviewed officials in SBA’s Office of Disaster Assistance to learn about that
program’s experiences with loan agents and its planned use of paperless office technology.
The team also examined OIG audit and investigative documents and contacted relevant
staff in other OIGs.

In addition, the inspection team obtained information from the National Association of
Government Guaranteed Lenders (NAGGL), including NAGGL’s efforts to ensure loan
agent competence and integrity. In response to NAGGL’s request, the team submitted
preliminary comments on the loan agent registration process, the draft SBA agent
Compensation Agreement, the draft code of ethics, and the issue of training for use in
NAGGL’s proposal for agent registration and training.

Because loan agents and SBA will increasingly rely on electronic communications, team
members researched the emerging challenges of a paperless environment through using the
Internet and attending a conference on cyberspace fraud. Further information was
obtained from OCIO staff as well as from outside organizations involved with the
paperless office.
Finally, to identify private sector methods of ensuring loan agent integrity and covering at
least part of SBA’s financial position in the event of loan agent fraud, the team
interviewed a surety association and two prominent insurance companies. One company
ranks among the top 50 property and casualty insurers in the U.S., and the other was one
of the first SBA preferred surety companies. The team evaluated the feasibility of using
professional liability/malpractice insurance, individual bonds, and/or lenders’ blanket bond
policies for the above purposes. A special focus was whether SBA could hold a lender
responsible for fraudulent behavior by agents acting on the lender’s behalf by making a
claim against the lender’s blanket bond policy.

All work on this inspection was conducted between September 1996 and November 1997
in accordance with the Quality Standards for Inspections issued in March 1993 by the
President’s Council on Integrity and Efficiency. The entrance conference with program
management was held in March 1997.
         CURRENT BARRIERS TO LOAN AGENT ACCOUNTABILITY



Defining Loan Agents’ Roles

The most basic barrier to making loan agents more accountable may be determining what
a specific agent really does. Even with the definitions of the three types of loan agents, it
is sometimes difficult in practice to distinguish one type from another, as was apparent
from statements by agents, lending industry representatives, and some SBA officials.
According to testimony by NAGGL officials before Congress in 1995, the definition of a
“packager” has been a problem due to the variety of services associated with the term. To
complicate matters, the term “packager” is sometimes used synonymously with “agent.”
Thus, a “packager” could complete paperwork for the borrower, complete paperwork for
the lender, find borrowers and locate lenders for them, or locate borrowers in exchange
for a lender referral fee. Moreover, the agent could work on the entire loan application
process, from origination to approval, or only on a portion of it.

In 1995, an SBA 7(a) program official testified before Congress that, because of changes
in the marketplace, the Agency’s long-standing guidelines regarding loan packagers no
longer met SBA’s needs. Historically, loan packagers provided their services only to
prospective borrowers. Over the years, traditional loan packagers have responded to the
growth and changes in the lending industry by modifying or expanding their operations.
Today, a number of packagers provide loan packaging and loan servicing functions
directly to SBA’s lending partners. The above 7(a) official further noted that new
individuals and entities have continually entered the marketplace to provide one or more
of a variety of loan packaging and lender services. Thus, a packager of one loan may be a
lender service provider on another loan, depending on the activities undertaken on each
loan.

Other agents simply change their specialties. For example, some agents who were strictly
packagers are now lender service providers. According to an SBA district official, loan
packagers may be declining in number due to the availability of new software programs
that automate the loan application package process. As a result, lenders may be packaging
more loans in-house, and the larger, nationwide lenders are more likely to hire loan
packagers as lender service providers.

Finally, the lines between a lender and agent can be blurred. For example, in one instance
an independent agent packaged loans for a bank while working out of an office within the
bank. Although the agent was not on the payroll of the bank, he was given the title of vice
president.
Few Restrictions to Entering the Profession

At present, virtually any individual or firm can become a loan agent. There is currently no
background check on an agent before he/she conducts business with SBA program
participants. Except for occasional state requirements, which are not directly related to
SBA program requirements, agents may enter and leave the occupation at will.

In addition, loan agents are not restricted by geography. According to SBA district
officials, loan agents are able to operate across state lines and Agency district office
jurisdictions. The increasing popularity of the Internet provides another tool for agents to
broaden their geographical coverage.


Lack of Reliable Data on the Number of Loan Agents

SBA cannot determine either the percentage of loans nationwide that involve agents or the
total number of agents, in part because its data bases do not currently track whether loans
involve agents. Field offices have differing systems for identifying loan agents, and some
have not tracked them at all, despite a requirement to do so.4 According to several SBA
officials in major district offices, the current version of the Compensation Agreement (see
Appendix A) is not tracked by district offices. The offices do examine, however, the fees
charged by an agent to make sure they are not excessive compared to the norm for that
district.

Even where documents are tracked, loan agents can easily evade oversight. For example,
in one case a fraudulent referral agent’s name never appeared on the loan applications
because the bank packaged the loans.

Moreover, some agents do not remain in the profession long because the work is non-
salaried and the cash flow is inconsistent. Thus, the number of agents is ever-changing.
To complicate matters, some accountants and lawyers act as loan agents only to
complement the accounting, legal, and other services they provide to their small business
clients.


Determining the Impact of Loan Agents

At the district office level, it is unclear whether packaged loans have higher purchase rates
than non-packaged loans. Although there was no data to determine this, some district
officials believe that the purchase rate is higher for packaged loans. Even if the rates are
higher, determining a loan agent’s responsibility for a defaulted loan is difficult. For

4
  SOP 50 10 3, dated August 31, 1991. SBA officials have stated that such a requirement existed before
this SOP. Effective December 1, 1997, SOP 50-10(4) requires the completion of the Compensation
Agreement, which is in the process of being modified.
example, a loan could have defaulted as a result of an honest agent’s efforts to reach the
higher risk borrowers SBA seeks to serve or for reasons unrelated to the agent’s actions.
Moreover, it is the borrower who is held responsible for the loan package, regardless of
whether a loan agent was involved, and it is the lender’s duty to exercise due diligence in
deciding whether to approve a loan.

Finally, as an SBA official noted, the Agency only finds out about agent fraud at the end
of the lending process, after the damage has been done. When these limitations are added
to the ease of entry into the loan agent field, it is no surprise that it is difficult to know
what overall impact--positive or negative--loan agents have on the 7(a) program.


SBA’s Diminished Resources

As noted earlier, the Agency has experienced a significant reduction in staff resources at a
time of increasing demand for its services. Because of this, some SBA officials contend
that the Agency does not have the resources to regulate loan agents. Although district
offices vary in their attention to loan agents, generally a prospective borrower must
complain about an agent before the Agency takes action.
    CHANGES AFFECTING SBA’S FUTURE REGULATION OF LOAN AGENTS



Changes in SBA’s Role

As SBA’s staff resources diminish, the Agency is shifting its emphasis from being directly
involved in loans to monitoring and regulating lenders. This is consistent with SBA’s
attempts to transform itself into a leading edge financial institution by expanding its ability­
-through its lending partners--to provide access to credit for small businesses.

While such a transformation provides opportunities, it also poses increased risks. For
example, lenders may be less likely to report fraud out of fear that bad publicity will affect
their customers’ and shareholders’ impressions of their institutions. This has already
occurred in cases of computer crime against lenders. In such an environment, Agency
officials are concerned that it will be even more difficult to monitor loan agents.
Moreover, there are no guarantees that the diminishing of SBA’s direct involvement in
loans will make more resources available to regulate its lending partners.


Changes in Lenders’ Environment

SBA is not alone in relying on outside parties to carry out its work. According to industry
officials, many lenders are contracting out functions to cottage industries such as
temporary workers, information systems firms, and loan agents. Moreover, NAGGL
officials testified in an October 12, 1995, hearing before the House of Representatives
Small Business Committee that loan functions traditionally performed by lenders
themselves--packaging, analyzing credit, servicing, or liquidating loans--are now being
performed by outside parties that are growing in number. In 1996, outsourcing at large
banks increased by 18 percent over the previous year.5

Outsourcing is not without its liabilities, however. Industry officials have expressed
concern about accountability: as more lender functions are contracted out, protection of
data and the disclosure and sharing of borrower information with outside parties may
become major problems. If borrower information is compromised, lenders could be
exposed to litigation and/or financial loss. There is also the question of quality control,
particularly when servicing firms use new employees, each of whom is expected to
become proficient in several areas simultaneously.




5
    Moore, Michael. Biggies Seek Help Strategically. American Banker, April 17, 1997: 10A.
Changes in Technology

Changes in technology are altering the way lenders, SBA, and related service providers do
business. With the advantages of more efficient communication and information systems
come potential drawbacks. For example, the Internet allows everyone, including service
providers, to reach a national audience. Unfortunately, this capability magnifies the
potential for misrepresentation and, in extreme cases, financial loss. As noted earlier, one
loan agent firm used the Internet to advertise itself falsely as an “SBA ‘preferred’ loan
packager.” In another instance, a different firm used the Internet to advertise “a direct
channel of communications with the SBA and lenders . . . ” In such situations, SBA’s
district office-based approach to regulation may not provide adequate geographical
coverage.

Another technological change is SBA’s gradual movement toward a largely paperless
office environment. The Office of Disaster Assistance (ODA) has started to process
disaster home loans without paper, and OFA plans to do so with LowDoc loans.
Moreover, according to an Agency official, a software development company that
produces a computer program for SBA loan applications has proposed a system whereby
borrowers can prepare applications using its software and then transmit them
electronically to lenders. Finally, the National Performance Review (NPR) has granted
money to SBA to use electronic signatures with the FA$TRAK loan program.

The Agency is also strengthening its internal computer systems. As noted earlier, SBA is
developing the Corporate Data Base, which will allow lenders to provide original data
directly to SBA rather than have Agency staff manually enter it, thus saving staff
resources.

The downside is that with the advent of electronic banking, the Internet, and other
evolving technologies, the parties to a transaction need a secure means of sending financial
data electronically and a reliable method for authenticating the transactions. Although
digital signatures, data encryption, and electronic certification of participants’ identity are
still in their infancy, the pieces of electronic security are gradually coming together.

Perhaps the greatest change that new technology brings to SBA and its lending partners is
not in the realm of information processing but in human relations. According to a former
packager who is now a banker, a disadvantage of electronic initiatives is that they can
minimize the personal contact between the lender, the loan agent, and the borrower. This,
in turn, reduces the ability of lenders to develop an intuitive sense of a prospective
borrower’s character, upon which a large part of credit decision-making has traditionally
been based. How such a change affects the quality of SBA’s loan portfolio remains to be
seen.



A System for Accountability
Based on the previously described barriers and changes, and consistent with SBA’s
emerging oversight role, any system to enhance loan agent accountability should:

• 	Emphasize fraud prevention over expensive after-the-fact remedies.

• 	Avoid creating undue hardship for small businesses, lenders, and honest loan
   agents.

• 	Monitor agents’ performance to identify problems.

• 	Take into account technological change.

The following chapters discuss what SBA has done thus far and what still needs to be
done.
                                    PREVENTIVE MEASURES



Throughout the Federal Government, agencies are having to carry out their missions with
fewer resources. One school of thought proposes two approaches to help the
Government stretch its public resources: anticipatory and market-oriented. The former
emphasizes preventing problems, while the latter relies more on market-based incentives
than on resource-intensive command-and-control regulation.6 Such approaches have
been used successfully in areas such as economic development, environmental protection,
and health care. When applied to regulating a cottage industry, an agency could prevent
undesirable members of that industry from participating in a program, while making it
economically worthwhile for other members to comply with the program’s rules. Before
SBA can apply such approaches to loan agents, however, it should be clear where ultimate
responsibility lies.


Responsibility for Loan Agent Actions

As a third-party industry, loan agents are not the main beneficiaries of the 7(a) program.
Instead, it is the small business seeking credit and the lender seeking profit at reduced risk.
Accordingly, the SBA district officials interviewed asserted that the borrower or the
lender, and not a loan agent, bears primary responsibility for a loan. The lenders
interviewed were even more adamant, arguing that they should be held responsible for
loans they approve, regardless of whether loan agents were involved. SBA already has the
power to hold lenders responsible for the loans made; for example, the Agency can deny
liability on a loan guarantee, terminate the Form 750 (Loan Guaranty Agreement), and
remove Preferred Lenders Program (PLP) or Certified Lenders Program (CLP) status
from a PLP or CLP lender. Moreover, SBA traditionally has viewed itself as primarily
involved with lenders and borrowers, not third parties such as loan agents.

Two changes are likely to make lender responsibility more important. First, as more
agents become lender service providers, i.e., under contract to lenders, the opportunities
for collusion with lenders’ employees are likely to increase. Poor lender due diligence may
create an environment for fraud. Because the small business lending departments in some
banks operate somewhat autonomously, this problem may worsen. Second, as SBA
allows electronic interchange between lenders and the Agency, SBA will need some
assurance that loan agents cannot access and manipulate the lenders’ data.

Unfortunately, simply holding lenders responsible after the fact is not enough. Lenders, as
well as borrowers and SBA staff, need adequate preventive tools to minimize the chances
of agent fraud or incompetence. Moreover, such tools should be compatible with SBA’s
changing loan programs and technological environment.
6
 Osborne, David and Ted Gaebler. Reinventing Government: How The Entrepreneurial Spirit Is
Transforming The Public Sector. New York, NY: Plume, 1993, pp. 219, 223, 301, 304.
Registration of Loan Agents

An important preventive tool--and one recommended by the Agency’s Committee on
Loan Packager Reforms--is the registration of loan agents. Registration is both
anticipatory and market-oriented because it seeks to screen out problem agents early,
while also defining which agents can profit from SBA’s programs. Registration can
reduce the potential for loan agent fraud while channeling agents into SBA-sponsored
training and/or testing designed to ensure a standard for competence. In addition,
registration can provide an accurate accounting of loan agents and a means of tracking
their performance--something the Agency does not have now. In short, registration is a
form of indirect regulation in which the parameters and players are defined, but not
regulated on a day-to-day basis.


IRS Enrolled Agent Program

Of the Federal programs that regulate agents, the most relevant is the IRS Enrolled Agent
Program, which was created to improve the quality of taxpayer representation before the
IRS. Although any person can be a tax preparer, only enrolled agents, attorneys, or
certified public accountants (CPAs) can represent their taxpayer clients before IRS.
Enrollment in the program is generally contingent on passing an examination proving
competence in tax matters. Attorneys and CPAs in good standing are automatically
eligible to be enrolled agents. In addition, IRS performs a limited background check,
including examining the tax records of enrolled-agent applicants.

IRS officials stated that the most important factor in combating unethical enrolled agents
is to place them under the authority of law, which is accomplished by registration.
Moreover, IRS found that the mere act of requiring information can deter fraud. For
example, when IRS required that taxpayers list dependents’ Social Security numbers on
tax returns, a large number of apparently phony “dependents” were no longer claimed.
Yet, despite the effort in regulating enrolled agents, perhaps the most important aspect of
the program is that IRS still holds the user of the agent’s services--the taxpayer--ultimately
responsible for the contents of a tax return, even if the enrolled agent is at fault.


Views on the Registration of SBA Loan Agents

When we discussed the idea of an SBA registration system with Agency officials, lenders,
and loan agents, we found-­

       •   	 idespread support for registration, but differences as to what registration
           W
           would entail and how it would be administered.
       •   	 ear that publishing a list of registered agents could be construed as an
           F
           endorsement from SBA.

       •   	 ivided opinion as to how extensive the background check should be for loan
           D
           agents.

       •   	 ifferences of opinion as to whether using fingerprinting to obtain complete
           D
           criminal histories was necessary for screening the majority of loan agents,
           particularly for those who seldom handle loans.

       •   	Concerns expressed by SBA officials about

           •   e	 nsuring full disclosure to the loan applicant of the services being
                provided, the costs of those services, and other relevant transactions;

           •   	including training and testing as part of the registration process;

           •   i	nadvertently driving those who only occasionally act as loan agents--e.g.,
                CPAs and attorneys--out of SBA programs, thus harming outreach to
                underserved areas; and

           •   h	 aving problems with loan agent registration possibly delaying prospective
                borrowers’ applications.


NAGGL and SBA Efforts at Registration

In September 1997, NAGGL’s Packager Training Task Force proposed details of a
registration system, based on input from its members (including an SBA official) and the
OIG. The basic principles behind the system are-­

•   	 he Compensation Agreement (Form 159) should be used as a source document to
    T
    monitor agents and the fees charged by agents.

•   	 he agent code of ethics should be developed as an agreement to abide by Federal
    T
    regulations.

•   	 raining should focus on disseminating SBA requirements to agents in the form of a
    T
    training manual.

•   	 egistration should be accomplished through successful completion of a test and an
    R
    SBA screening process.

•   	To maintain their registration status, agents should re-register every two years.
Since the NAGGL proposal, SBA has moved closer to a loan agent registration process.
The following, although not final, are some of the basic components of the evolving
process:

•   	 egistration would apply to everyone who acts as a loan agent, including those who
    R
    do so infrequently.

•   	 revised Compensation Agreement (see Appendix B for a draft) submitted at loan
    A
    closing would trigger the registration process. Not only would it be the basic source
    document, but it would alert SBA staff to check whether a loan agent was already
    registered. It also might incorporate by reference any future loan agent code of ethics
    to be developed. Any information not collected on the Compensation Agreement form
    might be collected using a separate registration form and a Form 912, Statement of
    Personal History.7

•   	 raining and/or testing would occur after an agent had been involved with a certain
    T
    number of loans.

•   	 he revised Compensation Agreement would ask what loan agents were used and the
    T
    fees charged.

•   	 list of registered agents would be widely available to lenders, SBA staff, and
    A
    prospective borrowers.

•   	 he procedure for suspension or revocation of a loan agent’s privileges would be
    T
    consistent with the Code of Federal Regulations (13 CFR 103).


Screening Loan Agents

Establishing a registration system requires screening loan agents to prevent dishonest ones
from participating in SBA programs. Implementing screening involves two issues. First,
how extensive should screening be? Although loan agents, lenders, and SBA officials
interviewed support the idea of screening, there was disagreement as to how much is
necessary.

Second, when should screening take place? If an unregistered agent submits a loan
package, should SBA refuse to guarantee the loan until the agent is screened and then
registered? Although this would provide a market incentive for the agent to get
registered, it could delay credit to the unsuspecting small business borrower. Or, should
initial registration be automatic, but with the option of quickly withdrawing an agent’s
registration later if he/she does not pass the screening process?

7
 The Form 912, Statement of Personal History, asks about the existence of a prior criminal record. Any
person misrepresenting information on this form is subject to criminal penalty.
The Extent of Screening

The issue of how much screening is necessary applies directly to the concept of program
surety, i.e., allowing access to the 7(a) program while providing reasonable assurance of
security. Currently, all prospective 7(a) borrowers must certify on the Statement of
Personal History whether they have a prior criminal record as well as provide personal
data such as date of birth. In addition, the Agency has required prospective borrowers to
sign a waiver allowing SBA or lenders to verify their tax returns against IRS records.
Some bankers have surmised that the mere act of requesting such verifiable information
has deterred dishonest borrowers from proceeding with their loan applications.

Having loan agents provide limited and non-tax-related personal data would help the OIG
to obtain a criminal history and could deter fraud. The most comprehensive system for
researching an agent’s criminal history is the Department of Justice’s National Crime
Information Center (NCIC). The simplest way for SBA to gain access to the NCIC for
administrative purposes, e.g., checking the background of loan agents, is through
authorizing legislation. Recent legislation allows SBA’s Administrator to verify the
existence of 7(a) and other loan applicants’ criminal backgrounds through the NCIC. 8
Expanding this legislation to include loan agents would strengthen the Agency’s fraud
prevention efforts at a current estimated cost of between $2 and $6 per agent. Without
such legislation, an NCIC check of loan agents would likely require fingerprinting--a
major burden for all concerned.


When Screening Should Occur

There are two ways to handle the timing of screening. The first would use screening as a
prerequisite for registration: an agent would have a grace period to register so that a
small business using this agent could obtain credit even though the agent was not yet
registered. SBA would set a time limit for the agent to register; any loan package
prepared after the limit would not be accepted. Without the limit, there would be little
incentive for an agent to register. The downside of this method is that an unsuspecting
borrower who uses an unregistered agent might be prevented from obtaining credit.

An alternative method suggested by SBA officials is to allow registration before screening.
This would avoid harming the loan applicant who happens to use an unregistered agent. If
the agent did not pass the screening process, he/she would be removed from the list of
registered agents and placed on publicly available lists of agents whose privilege to
conduct business with SBA had been suspended until further notice or revoked. Agents
failing to register would be placed on the list of agents suspended until further notice.
This method would be practicable if the following conditions were met:

8
    Small Business Programs Reauthorization and Amendments Act of 1997.
•   	 he OIG has ready access to the National Crime Information Center for quick criminal
    T
    history checks.

•   	 BA immediately removes an agent’s name from the list of registered agents if that
    S
    agent fails the screening.

•   	 BA vigorously moves to suspend or revoke the privilege of agents to conduct
    S
    business with the Agency when appropriate.

•   	 BA informs lenders that it is under no obligation to guarantee loans in which loan
    S
    agents were involved after the suspension or revocation of their privilege to conduct
    business with the Agency. Operationally, however, SBA would have the flexibility to
    determine whether special circumstances applied.


The Basic Registration System

To be effective, a loan agent registration system must balance security concerns, access to
the 7(a) program, and administrative efficiency. The following proposed registration
process incorporates ideas and concerns of SBA officials, lenders, and loan agents. It
would apply to everyone acting as a loan agent, including the accountant or attorney who
occasionally handles an SBA loan. The basic registration steps are-­

•   	 t the time of loan closing, SBA staff would check the Compensation Agreement to
    A
    determine if a loan agent involved with the loan was registered.

•   I	 f the agent was not registered, SBA could send a letter informing the agent of the
     registration requirement, specifying a due date for a response, and requesting the
     following:

       •   	The agent’s name, date of birth, place of birth, and Social Security number.

       •   	 uthorization for the OIG to request information from criminal justice
           A
           agencies.

       •   	 cknowledgment that the agent is aware of the requirements of 13 CFR 103,
           A
           which by reference would make the agent subject to any applicable future code
           of ethics.

•   	 lternatively, SBA could obtain the above information via a revised Compensation
    A
    Agreement.
•   	 BA would ensure that any known loan agent remaining unregistered would be placed
    S
    on a “suspended until further notice” list, pending proceedings on revoking the agent’s
    privilege to conduct business with SBA. The loan agent would have the right to
    appeal under 13 CFR 134.102 (c).

• 	Any required training and/or testing that SBA determines is necessary would occur
   after an agent passed the screening process.


Informing the Public

SBA would need to announce to the public, including loan agents, its registration
requirement. The announcement could be made through policy notices sent to lenders and
lobbying associations, brochures in application packages, and the Internet.

Once the registration system is in place, prospective borrowers, lenders, and SBA field
staff need to know--in as close to real time as possible--which loan agents are registered
and which have had their privilege to conduct business with SBA suspended or revoked.
The most cost-effective way to accomplish this may be to make the lists available through
the Agency’s Internet Home Page. Those not familiar with the Internet could call SBA’s
toll-free Answer Desk, which in turn would refer to the Internet list. Establishing such
lists would require changes to Title 13, Code of Federal Regulations, Part 103, and
possibly Agency Standard Operating Procedures (SOPs).

Other agencies use the Internet to keep the public informed. For example, the General
Services Administration (GSA) maintains lists of parties excluded from procurement and
other types of programs. Moreover, HUD has issued an Internet consumer alert about
“third party tracers” who track down refunds owed to citizens but may falsely represent
themselves as affiliated with HUD. In such cases, the Internet’s power can work in an
agency’s favor.

Recommendation 1. The OIG recommends that the Administrator propose
expanding current legislation to include loan agents among those subject to National
Crime Information Center criminal history checks.



Recommendation 2. The OIG recommends that the Associate Administrator for
Financial Assistance establish a loan agent registration process that-­

a) Requires any person or entity acting as a loan agent on any Section 7(a) business
   loan register with the SBA.

b) Ensures that each loan agent provides information, over his or her signature,
   that includes the Compensation Agreement, as revised, and the following:
       • 	The agent’s name, date of birth, place of birth, and Social Security
          number.

       • 	Written authorization for the OIG to request information from criminal
          justice agencies.

       • 	Acknowledgment that the agent is aware of the requirements of Title 13,
          Part 103, of the Code of Federal Regulations.

c) E
   	 stablishes, through the Office of the Chief Information Officer (OCIO),
   Internet lists of registered loan agents and agents whose privilege to conduct
   business with SBA has been suspended or revoked.

d) Ensures that SBA’s loan application packages, Internet Home Page, and other
   media carry the disclaimer that loan agent registration is neither an
   endorsement by the Agency nor a guarantee that using a registered agent will
   result in loan approval.

e) I	 nforms lenders that SBA is under no obligation to guarantee loans in which
    loan agents were involved after the suspension or revocation of their privilege to
    conduct business with the Agency.


Training and Testing

SBA officials believe that training and/or testing can improve loan agents’ competence and
have discussed linking them with the registration process. As indicated earlier, NAGGL
also supports the need for training. Although the OIG supports such efforts, it may be
necessary to implement the registration process first and add testing and/or training later
after the following issues are resolved:

•   	Who would receive training--all loan agents or just the high volume ones?

•   	How extensive would the training be?

•   	Who would provide the training--SBA or an outside entity?

•   	In what situations would testing be more appropriate than training?

Fortunately, SBA has a number of options. For example, even if a training/testing system
were not in place, the Agency could still place basic loan agent instructions and forms on
the Internet so that even inexperienced agents would have sufficient guidance.
Another option is for SBA to arrange for loan agent training to be accepted as part of
CPAs’ and attorneys’ continuing education requirements, thus encouraging greater
involvement in the 7(a) program and with underserved areas. A third option is for an
open-book test to be an alternative to training, particularly in locations where training is
not feasible.

Regardless of whether SBA uses training, testing, or some combination of the two, the
logistics need not be labor-intensive or complex. For example, the Agency or its designee
could place courses on the Internet as self-study tutorials or offer correspondence courses.
Likewise, open-book tests could be handled by computer or through the mail.
                            MONITORING PERFORMANCE



Role of Monitoring

As SBA relies more on the private sector to carry out 7(a) objectives, effective monitoring
of the performance of those involved, such as loan agents, becomes increasingly
important. Systematic monitoring can serve as an early warning system for identifying
problems before they can grow.


Current Status of Monitoring

As noted earlier, SOP 50-10-3, issued in 1991, required the monitoring of third-party
representatives, e.g., loan agents. We found, at least among the district offices
interviewed, that it has not been consistently followed. According to SBA officials,
district offices at one time kept manual records of loan agents, but as the Agency became
more computerized and other tasks took priority, the records were not always maintained.
District offices vary in how much emphasis they place on monitoring loan agents and in
how they apply rules governing loan agent behavior, e.g., fees charged to prospective
borrowers. To complicate matters, some loan agents operate in more than one district,
making it difficult for a single district office to know the full extent of an agent’s activities.

Even if a district office had complete records, it would be difficult to analyze agents’ effect
on SBA programs. For example, one district official stated that many of that district’s
agent-packaged loans had been through the liquidation process. Without further
examination, however, it is difficult to determine how much responsibility, if any, agents
should bear for loan purchases or liquidations. Moreover, there is no easy way to identify
unusual patterns of activity, such as an agent doing all of his/her business within one
sector of the economy or one demographic group. Clearly, the Agency needs better tools
for monitoring.


Systematic Monitoring

At a minimum, systematic monitoring requires-­

•   Reliable data on which decisions can be made.

•   Ready access to the data by officials responsible for monitoring.

•   Timely analysis of the data for the purpose of taking corrective action.
Reliability of Data. Agency officials plan to track the performance of loan agents in the
emerging Corporate Data Base by collecting data elements such as the agent’s name,
Social Security number, company name, employer identification number, company address
and phone number, test date and score, type of agent, years of experience, the lender(s)
the agent works for, loan number, agent fee, loan amount, narrative fields for complaints
and related matters, and information on suspensions and “debarments,” i.e., revocations of
an agent’s privilege to conduct business with SBA. Some of this information will come
from the revised Compensation Agreement.

According to SBA officials, the Agency will be able to link loan agents with data extracted
from the loan portion of the client data base, e.g., the purchase rate and Standard
Industrial Classification (SIC) codes of loans with which an agent was involved. Lenders
will be responsible for submitting current loan data and status updates directly to SBA
through the Internet.

The reliability of such data depends in large part on lender safeguards against unauthorized
data manipulation. Given the increasing popularity of the Internet, it is likely that loan
agents will provide information electronically through lenders. This is a cause for concern.
According to the President’s Commission on Critical Infrastructure Protection, the “price
for the efficiency of networking is increased exposure of data and systems to unauthorized
and anonymous access.”9 Because of this, the data upon which SBA will depend to make
decisions may be vulnerable to alteration by loan agents. Currently, a dishonest loan agent
can simply make false statements on a written form. An agent with a computer link to a
lender could penetrate the information system to alter loan--and agent--data after a loan
was approved but before the data was transmitted to SBA. Such an agent might input an
alias, show lower fees than were actually charged, or even remove his/her name from a
loan, thus making accountability extremely difficult.

Threats to financial institutions’ information systems are far from just theoretical. In 1994,
for example, computer hackers penetrated Citibank’s system and stole $10 million.
Because SBA is dependent on lenders’ information systems, it needs to hold lenders
accountable for any electronic data they send to the Agency, even if part of the data
originated with loan agents. Although the draft revision of the Form 750, Loan Guaranty
Agreement, would have lenders comply with a broad range of SBA requirements, there is
nothing specifically covering the transmission of electronic data. Adding an electronic
data transmission requirement to this document could provide a simple way to hold
lenders accountable. Without such provisions, SBA could leave itself and borrowers
vulnerable to the few--but potentially destructive--loan agents who use the computer to
commit fraud.


Access to Data. SBA is working to make data available to as many users as possible. In
the emerging Corporate Data Base, an SBA employee would be able to enter an
9
 The President’s Commission on Critical Infrastructure Protection. Critical Foundations: Thinking
Differently. Washington, D.C.: 1997, p.17.
identification number for a loan agent, lender, borrower, or other entity and determine the
programs in which the person or entity was involved. For example, not only could an
SBA field employee learn which loans, lenders, and geographical areas a loan agent had
been active with but also whether the loan agent was in good standing, involved in other
SBA programs, or the subject of any complaints. If the data base performs as advertised,
SBA will have a potent tool for monitoring and solving problems early.


Analysis of Loan Agent Data. Systematic analysis of loan agent data would enable SBA
to identify and correct problems. The Agency needs to set numerical standards that would
trigger closer examination of an agent’s activities. According to SBA officials, a lender
with a purchase rate exceeding five percent triggers closer Agency scrutiny. A similar
benchmark could be established for loans associated with specific loan agents. Another
option is for the Agency to compare the purchase rate of loans associated with each agent
to the range into which most agents’ purchase rates fall. A loan agent whose purchase
rate fell outside of the range would command greater attention. SBA might discover, for
example, that a significant number of defaults occurred early, possibly indicating loan
agent fraud.

One of the first steps for SBA would be to determine who would be responsible for
performing the analysis of loan agent data. Loan agents are not restricted to district or
even regional boundaries, particularly in the era of the Internet. Moreover, given the
inconsistencies among some district offices in their handling of loan agents, we believe that
the most effective course is for a single office of SBA to be responsible for handling the
analysis of all loan agents and any actions resulting from that analysis.


Recommendation 3. The OIG recommends that the Associate Administrator for
Financial Assistance establish a loan agent monitoring system that-­

a) Holds the lender responsible for the accuracy of data (including electronic data)
   originated by loan agents and transmitted by the lender to SBA.

b) Ensures that the Corporate Data Base links all loan data to associated loan
   agents, including the purchase rate of such loans.

c) E
   	 stablishes purchase rate benchmarks that, if exceeded, would trigger closer
   Agency examination of a loan agent’s performance.

d) Centralizes the evaluation of loan agent performance in a single office, rather
   than among district offices, to ensure consistency in the monitoring and handling
   of loan agents.
                    AN OPTION FOR LONG-TERM CONSIDERATION:

                         BLANKET BOND POLICIES AND SBA


One approach that may help SBA protect itself from losses due to loan agent fraud is the
lender’s financial institution bond insurance policy, also known as a blanket bond policy.
Under current regulations, SBA is released from liability on its loan guarantee when the
lender’s improper action or inaction has placed SBA at risk.10 Such action or inaction
could result from negligence or misconduct on the part of the lender and its employees.

Under Section 18(e) of the Federal Deposit Insurance Act, banks under Federal Deposit
Insurance Corporation protection can be required to have fidelity insurance to insure
certain risks containing the potential for significant loss. Other types of lenders, although
not subject to such a requirement, also have fidelity insurance, without which they could
not operate or stay in business.

The financial institution bond protects against a loss resulting directly from dishonest or
fraudulent acts committed by an employee acting alone or in collusion with others. Such
acts must be committed by an employee with the manifest intent (a) to cause the insured to
sustain such loss and (b) to obtain financial benefit for the employee or another person or
entity. The bond policy covers all of an institution’s employees without specifically
naming them. A criminal charge or indictment is not required in order to establish fraud.

A standard financial institution bond form (Standard Form 24) is used throughout the
lending community. Examples of employees covered under the bond policy include an
officer or other employee while employed in, at, or by any of the insured’s offices or
premises; an attorney retained by the insured; and a person provided by an employment
contractor to perform employee duties for the insured. Additional coverage has been
developed for those employees not directly covered under the blanket bond policy. This
coverage is in the form of a “rider” that is attached to the bond policy, e.g., a Freddie Mac
rider developed by the surety industry to protect Freddie Mac from agent fraud in the real
estate industry. An agent rider would serve as an instrument that the lender and SBA
could use to cover their losses from agent fraud. Covering lender service providers would
be easier given the direct relationship these agents have with lenders, i.e., they are paid by
the lenders.

The financial institution bond is a private agreement between the insurer (the bond
company) and the insured (the lender). SBA would not be able to make a claim directly to
the insurance company; only the insured, i.e., the lender, can make such a claim.
Nevertheless, SBA could consider this insurance coverage during the purchase of a loan
and after a loan has been purchased. After all, the purchase of a loan does not waive the
right of SBA to recover any money paid on the guarantee, plus interest, as a result of
fraud on the part of a lender and its employee(s).

10
     Title 13, Code of Federal Regulations, Part 120, Section 524 (13 CFR 120.524).
Once a rider is drafted, it must be approved be each of the fifty states’ insurance
departments. This process can take one to two years; however, it may be possible to
shorten the process because the rider would be used to protect money guaranteed by the
Federal Government.
APPENDIX C (Appendix A and Appendix B (SBA Form 159 and revised SBA Form
159, respectively) can be obtained by contacting the Inspection and Evaluation Division of
the OIG on (202) 205-7197 or by fax on (202) 205-6922).

                              US SMALL BUSINESS ADMINISTRATION
                                  WASHINGTON, D.C. 20416
Date:    March 31, 1998

To:      Tim Cross
         Assistant Inspector General
         for Inspections and Evaluation

From:    Jane Palsgrove Butler
         Acting Associate Administrator
         for Financial Assistance

Subject: OIG Final Draft Inspection Report
         Loan Agents and the Section 7(a)
         Program


The referenced Report, in essence, concludes with the following recommendations:

1. Expand legislation to include loan agents among those subject to National Crime Information Center criminal
history checks.

2. Establish loan agent registration process that:
   a. Requires registration with SBA
   b. Ensures provision of the following specified information-­
           • Name, date of birth, place of birth, and SSN
           • Written authorization for information from criminal justice agencies
           • Acknowledgment of awareness of provisions of 13CFR, Part 103
   c. Establishes lists of registered and debarred agents for Internet Home Page
   d. Ensure appropriate disclaimer re no endorsement on loan application packages, Internet Home Page, and
other media
   e. Informs lenders that SBA has no obligation to guarantee loans packaged by suspended or debarred agents

3. Establish a loan agent monitoring system that:
     a. Holds the lender responsible for the accuracy of data originated by loan agents
     b. Ensures that the SBA Data Base links all loan data to associated loan agents, including the purchase rate
        of such loans
     c. Establishes purchase rate benchmarks to trigger examination of a loan agent's performance
     d. Centralizes evaluation of loan agent performance

OFA generally shares the OlG's concerns about agents doing business with SBA through its loan programs and
has worked closely with the OIG during this effort. Of some significance is the OIG's recommendation to access
the National Crime Information Center database, thereby negating the need for fingerprinting. While we share the
concerns identified in the Report and are basically in agreement with the recommendations, we remain somewhat
less convinced than the OIG of the magnitude of the problems and of the losses caused by fraudulent agents.
APPENDIX D
CONTRIBUTORS TO THIS REPORT


Phil Neel, Team Leader
Michael Gaheen, Inspector
John Vanneste, Inspector
